No.
IN THE SUPREME COURT OF THE UNITED STATES
MICHAEL SKILLERN
V.
UNITED STATES OF AMERICA
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit

CERTIFICATE OF SERVICE
I, Michael Skillem, do herby certify that on the

day of June 2021, I

placed the foregoing Petition for Writ of Certiorari, and appendices into an
envelope with first class postage paid, and deposited it with the United
States Postal Service, deposited this Motion with a commercial carrier for
expedited delivery. The mailing is addressed as follows:
1. Office of the Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543; and
2. Solicitor General of the United States, Rm. 5615
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
In accordance with 28 USC Sec. 1746,1 declare under the penalty of perjury
that the foregoing “Certificate of Service” information is within my personal
knowledge and is true and correct.
Date: June

iJ,2021

Michael Skillem

14

